Department of Health and Human Services

        OFFICE OF

    NSPECTOR GENERAL





   AMBUIANCE SERVICES FOR

  MEDICARE END-STAGE RENAL

    DISEASE BENEFICIARIES:


       PAYMENT PRACTICES





              MARCH 1994

                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Semites (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECI’IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


This report was prepared in the Philadelphia regional office under the direction of Joy Quill,

Regional Inspector General and Robert A Vito, Deputy Regional Inspector General. Project

staftl




Isabelle Buonocore, Project Leader             Wm. Mark Krushat, MPH, SCD

Nancy J. Molyneaux, Lead Analyst               Brian Ritchie

Ahalya Nava, Intern                            Hugh Hetzer


For additional copies of this report, please contact the Philadelphia regional office at (215)

596-0606.

    Department of Health and Human Services

            OFFICE OF
       INSPECTOR GENERAL




       AMBULANCE SERVICES FOR

      MEDICARE END-STAGE RENAL

         DISESE BENEFICIARIES:


           PAYMENT PRACTICES





             MARCH 1994   OEI-03-90-02131

!
              EXECUTIVE                        SUMMARY


PURPOSE

This report describes growth in Medicare expenditures for Part B ambulance services
for persons with end-stage renal disease (ESRD) and problems with the coding and
payments systems for this semice.

BACKGROUND

Persons with ESRDare entitled to Medicare coverage under 1972 amendments to the
Social Security Act. In 1991, there were 193,883 ESRD beneficiaries with Medicare
Part B claims.

Medicare Part B covers ambulance semices under certain conditions. Ambulance
transport must be reasonable and medically necessary. Other coverage requirements
are that the vehicle and crew meet certain criteria and the ambulance trip be within
distance and destination limits.

Some ESRD beneficiaries need ambulance transport to hospital-based facilities for
dialysis therapy. Generally, ESRD patients require dialysis three times a week. Both
the dialysis treatment and ambulance transport are scheduled in advance.

In 1991, Part B claims representing $101 million in total ambulance allowances for
ESRD beneficiaries were handled by insurance carriers under contract with the Health
Care Financing Administration (HCFA). Ambulance company services and charges
are represented by alphanumeric codes which the Medicare program uses to analyze
utilization and payments.

We reviewed 1991 and 1988 Part B claims data for ESRD beneficiaries in HCFA’S
databases and interviewed carriers regarding coding and payment issues. We reviewed
ambulance studies conducted within the Department between 1986 and 1993. We also
performed probability tests to determine future Medicare expenses for ESRD
beneficiaries needing scheduled ambulance transport, and we estimated potential
savings on scheduled transports. A future report will address coverage issues.

FINDINGS

Less than 2 percent of ESRD benejiciati   accounted for 75 pement ($76 millwn) of total
ESRD ambulance allbwanizs.

While total ESRD arnbukmce allowances more than doubkd from 1988 to 1991, cetia~
utiuah”on patk?rns remained the same.

High volume users can be identi!   prospective~.
Cam-en do not use ambulance codes unijorndy.

l%e payment system does not take into account the row        predictable nature of
scheduled ambuhmce transport.

  �    Ambulance payments are based on an outmoded payment system.

  �	   The payment system does not take advantage of the lower costs associated with
       high-volume scheduled transports.

RECOMMENDATIONS

We believe coding changes will result in greater accuracy in monitoring and analysis of
Medicare-covered ambulance services. Therefore, we recommend that HCFA:

  .    Establish a code for scheduled transports.

  �    Require uniform use of national ambulance codes.

We also offer optional strategies to ensure fairer payment for services rendered.

While these options may require legislation and start-up costs, implementation of one

or more options could result in $11.4 to $34.1 million in savings annually ($57 to $170

million over a 5-year period) as shown in Appendix E. The HCFA may consider

combining two or more of the following strategies and establishing demonstration

projects in particular geographic areas.


  �	   Establish a payment schedule for ambulance transport to maintenance dialysis,
       and set the fee lower than what is paid for unscheduled, emergency transports.

  �	   Negotiate preferred provider agreements with ambulance companies to provide
       scheduled transportation for ESRD beneficiaries.

  �	   Undertake competitive bidding to establish a price for scheduled transports for
       ESRD beneficiaries or to select companies who agree to provide such services.

  �	   Establish a rebate program for companies that routinely transport ESRD
       beneficiaries.

  �	   Provide an add-on to the composite rate Medicare pays dialysis facilities to
       cover the cost of transportation for these beneficiaries, allowing the facility to
       negotiate agreements with ambulance companies rather than the program.

We are continuing our work to determine whether payments for 1991 Part B
ambulance transportation for ESRD beneficiaries met Medicare coverage guidelines.
Such information will also help HCFA in its continuing efforts to assess payment
policies for this semice.


                                             ii
COMMENTS

The HCFA commented on the draft of this report. They concur with our
recommendation to make coding changes, and they concur with the intent of our
recommendation to ensure fairer payment for services rendered. The HCFA is
“exploring the feasibility of revising the coding system” and is “engaged in a
comprehensive effort to improve overall coverage and payment policies... including
those involving payment for non-emergency transport services.” The full text of this
agency’s comments are in Appendix F.




                                          ...
                                          111
                        TABLE                    OF CONTENTS



EXECUTIVE          SUMMARY


INTRODUCI’ION             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..o.                   o *o1


FINDINGS


 Ambulance allowances               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..”o-””04


 Growth and utilization pattern.                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..””                   ”.”5


 Identifying high-volume users..                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..””.6


 Ambulance code problems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                .   .   .   .   .   ..””*o6





 Payment systemproblems                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..”””7



RECOMMENDATIONS                    AND AGENCY COMMENTS                              . . . . . . . . . . . . . . . . . ...9



ENDNOTES           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...11



APPENDICES


Ambulance Code Definitions                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


Carriers Interviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...””                           B-1


Comparison of Carriers (1991 - 1988)....                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . c-1


Identificationof      High-Volume Ambulance Users . . . . . . . . . . . . . . . . . . . . . . . . . D-1


Potential Savings on Scheduled Transports                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . E-1


Comments from the Health Care Financimz Administration                                . . . . . . . . . . . . . . . . . F-1

                         INTRODUCTION

PURPOSE

This report describes growth in Medicare expenditures for Part B ambulance sewices
for beneficiaries with end-stage renal disease (ESRD) and problems with the coding
and payment systems for this service.

BACKGROUND

Medicare coverage was extended to persons with ESRD under the 1972 amendments
to the Social Security Act. Persons with ESRD require dialysis therapy at least three
times a week, or a kidney transplant in order to sumive. There were 193,883 ESRD
beneficiaries with Medicare Part B claims in 1991.

Under Medicare Part B, ambulance transports are a covered service. However,
transports must be reasonable and medically necessary. Medical necessity is indicated
when any means of transportation other than an ambulance would endanger the
beneficiary’s health. Other coverage requirements are that the vehicle and crew meet
certain criteria and the ambulance trip be within distance and destination limits.

In calendar year 1991, carriers processed Part B ambulance claims totaling $101
million in allowances for ESRD beneficiaries. Carriers are the insurance companies
under contract with the Health Care Financing Administration (HCFA) to process and
pay Medicare Part B claims.

While the Medicare reimbursement is 80 percent of the allowed payment for service
rendered to the beneficiary, the carrier determines the payment allowance. The
ambulance company providing the service receives 80 percent of the payment
allowance from the carrier and the remaining 20 percent from the beneficiary.

An alphanumeric coding system is used by HCF~ carriers, and ambulance companies
to represent the type of ambulance service provided. These codes explain what
ambulance companies billed for and what services Medicare carriers paid for. Some
codes are national and defined by HCFA under its health care procedure code system.
Other codes are established and defined locally. (Currently, there is a movement away
from the use of local codes.)

Codes signify several things. For example, certain ones signify mileage charges, while
others signify a base charge for ambulance transport. The codes also indicate whether
the level of service was basic life support (BLS) or advanced life support (AI-S), and
whether the transport was an emergency or non-emergency. (See Appendix A for
definitions of eight national ambulance codes.)
The HCFA is responsible for administration of the ESRD and Medicare programs. It
maintains data on ESRD Program enrollees, Part B ambulance claims, and payment
allowances at its headquarters. The HCFA regional offices monitor and evaluate the
carrier’s handling of Part B claims.

This report is based on our on-going national study of ambulance transportation for
ESRD beneficiaries. A future report will deal with whether 1991 Part B ambulance
claims for ESRD beneficiaries met Medicare coverage requirements.

SCOPE AND METHODOLOGY

Our primary sources of information were HCFA’S Common Working File (CWF) and
Part B Medicare Annual Data (B-MAD) file (which was replaced by the CWF after
1989), and structured interviews with carrier staff. We also reviewed ambulance
studies conducted within the Department between 1986 and 1993, and met with
HCFA staff and representatives of the American Ambulance Association (MA).      The
data was collected and analyzed between November 1992 and June 1993.

We selected a sample of 1991 ambulance claims for ESRD beneficiaries     as follows:

  �	   Using the Medicare Status Code, we identified all ESRD beneficiaries with
       1991 CWF Part B claims. Then all 1991 CWF ambulance claims were selected
       for these beneficiaries based on eight national ambulance codes (the eight
       codes are in Appendix A).

  �	   These ambulance claims were then summarized by Part B carrier, and we
       arrayed the 56 jurisdictions of all 36 carriers by total allowed payments. Two
       carriers were then excluded: Maryland Blue Shield (because of a number of
       active investigations) and the Railroad Retirement Board (because of the large
       geographical area that it covers).

       From the remaining 54 carrier jurisdictions, we identified the top 16,
       representing 87 percent of the total ESRD ambulance allowances for 1991
       ($85.3 of $97.3 millionl). From the top 16 we randomly selected a sample of 8
       (see Appendix B for sample carriers).

  �	   Finally, a simple random sample of 35 ESRD ambulance claims was selected
       from each of these 8 carriers. These 280 claims represented 277 beneficiaries.

We conducted structured interviews with carriers in our sample regarding coverage of

ambulance codes, claims processing, identification of non-covered claims, and

detection of overpayments. The carriers sent us documents to support their interview

responses, copies of the claims in our sample, and profiles of the ambulance

companies that submitted the claims.





                                           2

Using HCFA’S 1991 CWF claims data and 1988 B-MAD claims data,2 we compared:
(1) total allowed ambulance payments for ESRD beneficiaries, and (2) carriers with
beneficiaries who had over $10,000 in ambulance allowances (see Appendix C).

We conducted a probability analysis using the number of submitted ambulance claims
per ESRD beneficiary (in 1991) in order to identify high volume ambulance users (see
Appendix D). We used the percentages of beneficiaries requiring the largest amount
of ambulance allowances to predict future trends in carrier payments.

We also estimated potential savings on scheduled ambulance transports for ESRD
beneficiaries (see Appendix E).

We met with HCFA staff and AAA representatives to determine the availability of
data and to clarify issues. We reviewed past ambulance studies to determine what
work had already been done.

This study was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           3

                                  FINDINGS


LESS THAN2PERCENT     OF THE ESRDBENEFICIARIES ACCOUNTED FOR
75 PERCENT ($76 MILLION) OF TOTAL ESRD AMBULANCE ALLOWANCES.

As shown in the shaded area of Table 1, $76 million was allowed in 1991 for
ambulance transportation of 2,573 ESRD beneficiaries, less than 2 percent of the total
ESRD population (193,883). Allowances for services to this small group of
beneficiaries represent 75 percent of the total $101 million allowed for ambulance
transport of ESRD beneficiaries. At least $10,000 was allowed in ambulance services
for each of these 2,573 beneficiaries.

Most ESRD beneficiaries have few, if any, ambulance transports to dialysis. In fact,
there were no allowances for ambulance services for 79 percent (152,963) of ESRD
beneficiaries. Another 14 percent (27,808) had ambulance allowances of $1 to $499,
indicating few ambulance transports were provided. The table below shows the range
of allowed amounts for all ESRD beneficiaries.

Table 1.


II         RANGE OF 1991 AMBULANCE ALLOWANCES FOR ESRD BENEFICIARIES




Source: HCFA’S timmon   Working File - Part B Data




                                              4

WHILE TOTAL ESRD AMBULANCE ALLOWANCES MORE THAN
DOUBLED, CERTAIN UTILIZATION PA’ITERNS REMAINED THE SAME.

Total ambulance allowances for ESRD beneficiaries more than doubled between 1988
and 1991. In 1988, carriers allowed $40 million for ESRD ambulance transport; by
1991, the total allowed amount had grown to $101 million.

Patterns of utilization--high dollars paid to ambulance companies for services to a
small number of beneficiaries--have remained the same. In 1988, 4 percent of
beneficiaries with ambulance allowances (1, 181 of 27,326) accounted for 65 percent of
total ESRD ambulance allowances. Each of these 1,181 beneficiaries had allowances
of $10,000 or more. In 1991, 6 percent (2,573 of 40,920) of the beneficiaries with
$10,OOOor more accounted for 75 percent of the total.

The distribution of beneficiaries among earners has also remained essentially the same
(see Appendix C). The top 16 carrier~ in 1988 and 1991 accounted for 90 percent of
ESRD beneficiaries with allowances over $10,000. (Fourteen of the top 16 carriers
were the same in 1988 and 1991.)

Transport of ESRD beneficiaries for maintenance dialysis provides a small number of
ambulance companies with a high volume of generally scheduled transports which
Medicare covers. In fact, Table 2 below shows that in 1991, only 4 percent (215 of

Table 2
                 RANGE OF 1991 AMBULANCE COMPANY ALLOWANCES
                             FOR ESRD BENEFICIARIES
 Range of Allowance                   No. of Companies             Total Allowed
 $100,000-199,999                               103                  $14,545,468
  200,000-299,999                               38                    9,294,980
  300,000-399,999                I              25       I            8,476,857
  400,000-499,999                               18                    8,102,946
  500,000-599,999                                  8                  4,245,493
  600,000-699,999                                  6                  3,986,299
  700,000-799,999                                  1                    732363
  800,000-899,999                                  2                  1,671,806
  900,000-999,999                                  1                    923,548
  1,000,000-1,999,999                           11                    15,053,152
  2,000,000- +                                     2                  5,968,451
  TOTAL                                         215                  $73,001*

Source: HCFA’S Common Working File - Part B Data


                                            5
5,228)3 of all ambulance companies receiving Part B payments had ’72percent or $73
million of the total payment allowances for ESRD ambulance transportation.     The 215
companies were allowed 83 percent of the dollars ($62.6 million) for services to the
2,573 beneficiaries with allowances over $10,000.

Similarly, in 1988, the percentage of ambulance companies receiving the largest share
of allowances was very small. Of the ambulance companies which provided transports
to ESRD beneficiaries in 1988, 2.1 percent (88) accounted for 57.6 percent of the total
ESRD ambulance allowances.

HIGH VOLUME USERS CAN BE IDENTIFED                    PROSPECITVELY.

It is possible to predict which ESRD beneficiaries will be high volume users of
ambulance services. With refinements, carriers can use either of two models in
Appendix D as a step in predicting which beneficiaries will have a high-volume of
scheduled transports.

We found the first model, which identifies beneficiaries with a second       transport w“thin
3 days of the first to be highly predictive. The beneficiaries identified    represented 66
percent of the total allowed amount for ESRD ambulance transports           in 1991 and 71
percent of all ESRD beneficiaries with $10,OOOor more in ambulance           allowances.

The second model identified the number of transports each beneficiary had within 15
days of the first. Beneficiaries with 7 transports in this time period accounted for
nearly half of the total allowed amounts for ESRD ambulance transports. The
average amount allowed per beneficiary was over $22,000.

Identification of high-volume users could be part of new payment strategies to save
Medicare funds.

CARRIERS     DO NOT USE AMBULANCE                 CODES UNIFORMLY.

Ambulance codes represent the types of selvice provided by an ambulance company
and types of service paid for by Medicare. Without uniform use of codes by carriers,
HCFA cannot accurately analyze service utilization or payments. For example,
current coding practices make it impossible to know the number of ESRD
beneficiaries transported in emergency situations or as scheduled trips.

In 1991, the eight carriers in our sample varied in terms of which codes they covered
and how these codes were used. Only two carriers covered all eight national codes
that we examined (Appendix A lists the codes). The remaining carriers covered from
five to seven. They also used codes differently, so that the type of service covered
under a code could vary from carrier to carrier. For example, one carrier used a code
(A0221) to indicate mileage charges for ALS emergency transport, while another used
the same code to indicate a base charge for basic life support transport. The



                                             6

emergency or non-emergency     nature of the transport was irrelevant to the latter
carrier.

Although inconsistency among carriers has been somewhat reduced since 1991, it still
exists today. Sample carriers currently lack uniformity in distinguishing between
emergency and non-emergency transport. Two of the eight carriers require that
scheduled transport of ESRD beneficiaries to maintenance dialysis be billed under a
non-emergency code (e.g., A0150), while two other carriers do not cover non-
emergency transport and require that the same type of service be billed under an
emergency code (e.g., AOO1O). Three carriers instruct providers to use a non-
emergency code for this service. These three carriers do not automatically deny
payment if an emergency code is billed for this service. However, if billed routinely,
the carriers would inform the ambulance company of the preferred code. The one
remaining carrier in the sample does not categorize transports as emergency or non-
emergency.

The lack of consistency in coding is further illustrated by variations in the use of return
trip codes. Of the two carriers who cover only emergency codes, one uses the return
trip code (A0222) to indicate an emergency transport, while the other considers the
return trip a non-emergency and does not cover it. Five other carriers use the return
trip code as a non-emergency code, and one includes both emergency and non-
emergency transport under this code.

A study conducted by Project HOPE and included in a recent HCFA Report to
Congress identified similar problems in the way codes are used. The study suggested
that HCFA encourage the use of a separate code for scheduled ambulance transport.

THE PAYMENT SYSTEM DOES NOT TAKE INTO ACCOUNT THE RO=
PREDICTABLE NATURE OF SCHEDULED AMBULANCE TRANSPORTS.

Ambulance payments are based on an outmoded payment system

The Medicare payment system employed by carriers is based on        inflation indexed
charges or the customary or prevailing charge, whichever is less.    Under this system,
payment to an ambulance company is determined by what it has         charged in the past
and what other ambulance companies in the area charge, rather       than the cost of
resources needed to provide the service.

Both Congress and HCFA have recognized the vulnerabilities in payment based on
reasonable, usual, or customary charges. As a result, the Medicare program now pays
hospitals based on diagnostic-related groups and has established fee schedules for
physician semices, laboratory services, and durable medical equipment. The fee
schedule for physician services is distinguished by its use of relative resource
consumption as the primary basis for payment rather than historical charges.




                                            7

Under the current system, ambulance companies in the same area providing the same
service may receive different payments. In our sample of 1991 claims, we found
different payments for the same service in metropolitan areas of Florida, Michigan,
Pennsylvania, and Texas. For example, in Pittsburgh, Pennsylvania three ambulance
companies transported ESRD beneficiaries to dialysis facilities. Each billed the carrier
under the same base code for BLS emergency transport--AOOIO--and were paid base
rates of $140, $157, and $175. Each company also billed under a mileage code for the
distance traveled between the beneficiary’s pick up location and destination. (The
sample carriers pay only for the miles traveled while a beneficiary is aboard.) As with
base codes, payment for mileage codes varied among the three companies.

These variations still occur today. In 1993, seven Philadelphia, Pennsylvania
ambulance companies that were in our 1991 sample had different allowances ranging
from $130 to $183 for the same base code (BLS emergency transport--AOOIO).

Another problem associated with this system is that carriers must maintain       separate
charge profiles for each ambulance   company.    This is complex,   time-consuming,    and
costly to administer.5

l%e payment system dbes not take advantage of the lower cmts associated with high-
volume schedukd transpmm.

The Project HOPE study found ambulance company costs for scheduled transport to
be substantially lower than costs for emergency transports. According to the study,
“scheduled runs are provided at ... approximately 20 to 60 percent below the costs of
providing an emergency BLS run and substantially below the cost of providing an
emergency ALS run in the surveyed States.”b The study also stated that some private
ambulance companies specialize in scheduled transports because of the combination of
lower costs and the fact that carrier payments do not differ for scheduled and
unscheduled services.’ In 1987, the Office of Inspector General found that Veteran’s
Hospitals contract with ambulance companies for scheduled transports at rates
approximately 25 percent less than Medicare rates (OAI-03-86-00012).

We estimate that Medicare could save between $11.4 to $34.1 million annually ($57
to $170.5 million over 5 years) by changing its payment method for ambulance
transports. Since current coding and payment practices make it impossible to precisely
identiq the ambulance allowances for ESRD beneficiaries going to dialysis, the savings
are based on approximate calculations. The calculations for these savings are shown
in Appendix E.




                                            8

                    RECOMMENDATIONS


CODING SYSTEM

In light of our findings, we recommend that HCFA take the following steps to ensure
greater accuracy in monitoring and analysis of Medicare-covered ambulance sexvices.

  �    Establish a code for scheduled transports.

  �    Require uniform use of national ambulance codes.

       The HCFA may need to revise or elaborate on the current definitions of
       national ambulance codes so that the distinctions among codes are clear to
       billers and payers alike. A specific type of ambulance service should be
       represented by one code only. Carriers should be notified that sexvices should
       be billed under the appropriate code, as newly defined, in order to be
       reimbursed.

PAYMENT SYSTEM

In light of the predictable nature of scheduled transport for dialysis, we offer several
optional strategies which would better ensure fair payment for services rendered and
would save Medicare funds. While these options will require start-up costs and, in
some cases, legislation, we believe Medicare could save between $11.4 to $34.1 million
annually ($57 to $170.5 million over 5 years). Since current coding and payment
practices make it impossible to precisely identify the ambulance allowances for ESRD
beneficiaries going to dialysis, the savings are based on approximate calculations. The
calculations for these savings are shown in Appendix E.

The HCFA may consider combining two or more of the following strategies and
establishing demonstration projects in particular geographic areas. The probability
models described in appendix D could be used in implementing some of these
strategies.

  .	   Establish a payment schedule for ambulance transport to maintenance dialysis,
       and set the fee lower than what is paid for unscheduled, emergenq transports.
       To establish the payment amount, HCFA might consider using Project HOPE’s
       data on the lower costs of scheduled transports or assess the practices of other
       payers (e.g., Veterans Administration).

  .	   Negotiate    preferred provider agreements with ambulance companies to provide
       scheduled    transportation for ESRD beneficiaries. The ambulance company
       would be    given a set payment and would have a predictable volume of
       scheduled    transports.


                                            9
  �   Undertake competitive bidding to establish a price for scheduled transports for
      ESRD beneficiaries or to select companies who agree to provide such services.
      Thecompetitive bidding might remodeled after the 1993 HCFAlegislative
      proposal for oxygen and other durable medical equipment.

  �   Establish a rebate program for companies that routinely transport ESRD
      beneficiaries. Such a program might be modeled on the Medicaid rebate
      program for prescription drugs. Theadvantage   ofarebate    program is that it
      does notrequire front-end administration. Forexample, HCFAwould establish
      a base rebate amount and if the ambulance company provided the service it
      would pay Medicare the rebate. If the company did not provide the service, it
      would not have to pay the rebate.

  �   Provide an add-on to the composite rate Medicare pays dialysis facilities to
      cover the cost of transporting beneficiaries and allow the facility to negotiate
      agreements with ambulance companies. The model for this is the Medicare
      hospital payment mechanism. By bundling an add-on for transportation,
      Medicare would be encouraging the use of the most cost-effective mode of
      transportation.   The dialysis facility, which is in an excellent position to
      determine whether a patient requires an ambulance, would have a financial
      interest in arranging for the most economical means of transport. However,
      given the small number of ESRD beneficiaries using ambulances, it maybe
      difficult to set add-on rates for all facilities.

We are continuing our work to determine whether payments for 1991 Part B
ambulance transportation for ESRD beneficiaries met Medicare coverage guidelines.
We believe such information will also help HCFA in its continuing efforts to assess its
payment policies for this semice.

COMMENTS FROM HCFA

The HCFA commented on the draft of this report. They concur with our
recommendation to make coding changes, and they concur with the intent of our
recommendation to ensure fairer payment for services rendered. The HCFA is
“exploring the feasibility of revising the coding system” and is “engaged in a
comprehensive effort to improve overall coverage and payment policies...including
those involving payment for non-emergency transport services.” The full text of this
agency’s comments are in Appendix F.




                                           10

                                   ENDNOTES



1.	   The earners that were excluded had a combined allowed amount of $3,792,639
      (Maryland - $1,897,209; Railroad Retirement Board - $1,895,430). Therefore,
      the total allowed amount for all carriers was $101,175,828.

2.	   Al11988B-MAD data is basedon 10national       ambulance codes. These include
      the 8 codes listed in Appendix A.

3.	   This percentagecould be lower if, as is often the case, ambulance companies
      have more than one provider identification number.

4.    Project HOPE, A Studv of Pavm ents For Ambulance Services Under Medicare,
      p. 7-3 and p. 7-11, as appended to a report to Congress, Studv of Pavrnent of
      Ambulance Services by Donna E. Shalala, Secretary, Department of Health and
      Human Semites (Washington, DC. U.S. Department of Health and Human
      Services, 1993).

5.	   Physician Payment Review Commission, Annual Report to Corwress, p. 2
      (Washington, DC: Physician Payment Review Commission, 1992).

6.    Project HOPE, p. 7-10.

7.    Ibid, pp. 7-7 and 7-8.




                                        11

                              APPENDIX                    A


                DEFINITIONS     OF NATIONAL AMBULANCE               CODES


The Health Care Financing Administration defines national ambulance codes.
Although most ambulance allowances are associated with the eight codes below,
carriers va~ in both the number of codes they cover and how they use each code. f%
shown below, the eight codes include both emergency and non-emergency transports.


Base Charge Codes

AOO1O	          Ambulance service, basic life support, base rate, emergency transport,
                one way.

A0220	          Ambulance service, advanced life support, base rate, all inclusive
                services, emergen~ transport, one way.

A0223	          Ambulance service, advanced life support, base rate, where non-reusable
                advanced life support supplies are billed separately, emergency
                transport, one way.

A0150           Non-emergency   transportation,    ambulance, base rate, one way.

A0222           Ambulance setice,   return trip, transport.


Mileage Chanze Codes


AO020           Ambulance sewice, basic life support, per mile, transport, one way.


A0221           Ambulance service, advanced life support, per mile, transport,      one way.



Miscellaneous    Code


A0999           Unlisted ambulance service.





                                            A-1

                            APPENDIX                     B


                             CARRIERS     INTERVIEWED

The eight carriers below made up our carrier sample from which our claim sample
was drawn.

We conducted structured interviews with each carrier.

       Blue Shield of California
       Chico, CA

       Blue Cross and Blue Shield of Florida
       Jacksonville, FL

       Blue Cross and Blue Shield of Kentucky
       Lexington, KY

       Massachusetts   Blue Shield (for Massachusetts)
       Boston, MA

       Blue Cross and Blue Shield of Michigan
       Detroit, MI

       Empire Blue Cross and Blue Shield (for New York City and environs)
       Crompond, NY

       Pennsylvania Blue Shield (for Pennsylvania)
       Camp Hill, PA

       Blue Cross-Blue Shield of Texas
       Dallas, TX




                                           B-1
                                      APPENDIX                      C


    COMPARISON OF 1991 AND 1988 CARRIERS                                 WITH BENEFICIARIES
           ACCOUNTING FOR ALLOWANCES                                     OVER $10,000


                         1991


      carrier             Total         Total                    Carrk$          Total     Total


Empire Blue               408         $13,987,615
         Massachusetts Blue
    132    $4,302,419
Cross/Blue Shield
                                         Shield (MA)

(NYC area)

                                                           Nationwide
            151     3,229,400
Pennsylvania
                                              Ohio

Blue Shield (PA)

                                                           Pennsylvania
          121     2,618,380
Massachusetts             214          8,120,773
          Blue Shield [PA)

Blue Shield (MA)

                                                           *Empire Blue
          105     2,151,463
Arkansas
Blue Shield (LA)

                          213
                                  I    6,188,347
          Cross/Blue Shield

                                                           (NYC area)

Travelers
                                                 Arkansas
              74      1,582,462
Connecticut          %==
                                  Blue Shield (IA)

Nationwide
Ohio                 I     174
                                  I    4,267,011           Travelers

                                                           Connecticut

                                                                                  64      1,569,767


Texas                      128         3,213,977           Pennsylvania
          63      1,260,118
Blue Shield                                                Blue Shield (NJ)

Alabama
Blue Shield
Pennsylvania
                          v                                Occidental

                                                           California

                                                           Texas

                                                                                  54


                                                                                  41
                                                                                          1,056,789


                                                                                          976,043
Blue Shield (NJ)                                           Blue Shield

Kentucky
Blue Shield          I     91
                                  I    2,0~103             Aetna
                 46      898,085


                                                           Illinois
              42      867,031
                                                           Blue Shield

                                                           Michigan Blue
         42      75~03
                                                           Shield

                                                           Florida
               37      729,870
                                                           Blue Shield

                                                           Maryland
              38      713,053
                                                           Blue Shield

                                                           All Railroad Board
    21      536,379
                                                           Travelers
             22      485,354
~
                                                           Virginia


‘JDTAL                             $68&2#58
               ‘17)TAL
              1.053   S23.728916
In 1988, thecarrier’s nome was Blue Cross/Blue St
         tier New York



                                                     c-1
                            APPENDIX                   D


PROSPE~         IDENTIFICATION OF HIGH-VOLUME AMBULANCE                        USERS
            AMONG END-STAGE RENAL DISEASE BENEFICIARIES


According to data in the Common Working File, $101,175,829 was allowed in 1991 for
ambulance transportation of 44,141 ESRD beneficiaries. (Of the 44,141 claims
submitted 40,920 were allowed). Nationwide, 17 percent of the ESRD beneficiaries
receiving ambulance services accounted for 75 percent of the total dollars allowed for
these services. These 2,573 beneficiaries had an average of over $29,000 allowed for
ambulance semices.

An appropriate case management scheme could identify high-volume ambulance users.
However, in order to introduce such a scheme, we must first identify ESRD
beneficiaries for whom ambulance services are expected to reach pre-determined
expenditure levels. Two methods that could identify these beneficiaries are outlined
below. Both involve reviewing the claims for each beneficiary according to date of
service and aggregating all claims with the same date of service as one trip.

The first method looks at the number of days between the first and the second trip
claimed during the year. For those beneficiaries falling within defined categories, the
total allowed amounts for the whole year are summed. The second method looks at
the number of ambulance trips for which claims were filed w’thin a fixed time period.
For this exercise, we have used a 15-day period.

Table I presents the outcome analysis using the first method based on the number of
days between the first and second trip. First, we grouped those ESRD beneficiaries
using 3 -day intervals between the first and second trip (a second trip within 3 days of
the first, within 6 days, within 9 days, and so on Up to 30 days. Then we summed the
total allowed amounts for all ESRD beneficiaries within each category.

The results of this analysis reveal that those ESRD beneficiaries with a second
ambulance trip within 3 days of the first accounted for 66 percent of the total amount
allowed for ambulance trips by ESRD beneficiaries. Over 70 percent of the 2,573
beneficiaries with over $10,000 in allowed amounts for 1991 had a second trip within 3
days of the first.

Table II presents a breakdown of the 44,141 beneficiaries by the number of
ambulance trips within a 15 day period from their first trip of the year. Those
beneficiaries with seven trips within 15 days of their first trip accounted for over 44
percent of the total amount allowed in 1991 and those with seven or more trips, over
50 percent of the allowed amounts.




                                         D-1

The results presented here demonstrate that it is possible to identi~, in a prospective
manner, those ESRD beneficiaries with high potential for large expenditures for
ambulance services. We have not considered beneficiary demographic variables in this
analysis. Further research would help to delineate the predictive power of these and
other factors, test other methods, and potentially reduce the number of false positives
that occur in our models.



                                        Table I

   TOTAL ALLOWED AMOUNTS BY CATEGORY OF NUMBER OF DAYS
        BETWEEN THE FIRST AND SECOND TRIP IN ONE YEAR


     Number of Days to        Number of           Total 1991 Allowed   Percent of
        Second TriD             Benes                   Amount           Total
    One Trip                         22,424               $4,011,244         4.0%
    3 Days                            5,417              $66,517,097        65.8%
    6 Days                            1,421               $6,358,670         6.39Z0
    9 Days                            1,168               $3,537,683         3.5%
    12 Days                             904               $2,050,833         2.0%
    15 Days                             849               $1,779,624          1.8%
    18 Days                             640               $1,115,348         1.1%
    21 Days                             622               $1,353,194         1.3%
    24 Days                             524               $1,067,824         1.1%
    27 Days                             464                 $647,446         0.6%
    30 Days                             470                 $966,737         Lo%
    30+ Days                          9,238              $11,770,133        11.6%
                    Total            44,141             $101,175,833




                                        D-2
                               Table II


TOTAL ALLOWED       AMOUNTS BY NUMBER OF TRIPS WITHIN 15 DAYS



   Number of                             Total 1991       Percent
   Trips within       Number of      Allowed Amounts         of       Cum
 15 Days of First       Benes                              Total     Percen

        1                 34,623           $21,423,586     21.17%      21.2%
        2                  4,619             $6,884,944     6.80%      28.0%
        3                  1,003             $3,752,379     3.71%      31.7%
        4                   513              $3,602,807     3.56%      35.2%
        5                   569              $7,218,580     7.13%      42.4%
        6                   486              $6,658,750     6.58%      49.0%
        7                  1,980            $44,720,031    44.20%      93.2%
        8                   261              $5,335,791     5.27%      98.4%
        9                     57             $1,054,543      1.04%     99.5%
       10                     14              $245,418      0.24%      99.7%
       11                      7              $115,645      0.11%      99.8%
       12                      7              $137,670      0.14%     100.0%
        13                     1                $25,550     0.03%     100.0%
        14                     0                            0.00%     100.0%
        15                     1                  $138      0.00%     100.0%
      Total               44.141           $101.175.832




                                   D-3

                                  APPENDIX                       E


           POTENTIAL SAVINGS IF A REDUCED ALLOWANCE IS USED
           FOR SCHEDULED TRANSPORTS FOR ESRD BENEFICIARIES

Since current coding and payment practices make it impossible to precisely identify the
ambulance allowances for ESRD beneficiaries using scheduled ambulance transports
to maintenance dialysis, our calculations are based on several assumptions.

The ESRD Beneficiaries with $10,000 or more per year are frequent users of
ambulance transports, and it is highly probably that maintenance dialysis accounts for
most of the transports. While beneficiaries with less than $10,000 may also be
frequent users, we chose $10,000 as a conservative cut-off.

We recognize that some transports are indeed emergencies which cannot be foreseen
and scheduled. We have no way to estimate this precisely. However, a conservative
estimate is that 75 percent are for scheduled rather than emergency transports.
Based on this conservative estimate, the third column of the table shows the allowed
amounts for scheduled transports as 75 percent of the total allowed in 1991.

The remaining columns show potential annual savings if the scheduled transports were
reduced anywhere from 20 to 60 percent. Again, we have no way of knowing precisely
what savings are possible. However, the Project Hope study estimated potential
savings of 20 to 60 percent. The exact amount of savings would depend on the
particular approach taken.

 Range of         Total      Approximate          Potential Annual Savings on Scheduled Trips
 Beneficiary    Allowed     Allowancesfor              Baaed on 20 to 60 Pereent Reductions
 Ambulance      in 1991      Scheduled
 Allowances                 Transport            20%          30%          40%          50%          60%


$1o,ooo-
19,999         $14,012479   $10309,359      $2,101,872   $3,152W8    $4,203,744    $5,254,680   $6,305,615
 20,000-
 29,999        14,465,638   10,849,228      2,169,846    3,254,768    4,339,691     5,424,614    6,509,537
 30,000-
 39,999        13,884,494   10,413,370      2,082,674    3,124,011    4,165,348     5,206,685    6,248,022
 40,000-
 49,999        11,763,466   8,822,600        1,764,520   2,646,780    3,529,040     4,411,300    5,293,560


 50,000        21,802,426   16,351,819      3,270,364    4,905346     6,540,728     8,175,910    9,811,091


TOTAL          75,928,503   56,946,376      11,389,276   17,083,913 22,778,551     28,473,189   34,167,825




                                                 E-1

                  APPENDIX           F

COMMENTS   FROM THE HEALTH   CARE FINANCING ADMINISTRA~ON




                             F-1
                                                                 kieehh   Cam
       U8PARTMENT     OF HliALm & HUMAN SERVICES                 Finaciw   Admmimrmmn




                                                                 Memorandum
wSu
Frum


mbloet

       “!i=iii’~?’qY@’4

           Offkt ofIiIaputor Gtmerd DM R-     “~buiancc Services for A4e#icarc
           EurMtage Rend Disease %w~        Payment Pra~”     (OE1-03-W-~13 1)
To
           June Gibbt Brown
           IqnXmr Gcrleral


      Wa




                                                                                         .




                                                                                        .




                                                                                            .
                                                                                         ,’




                                                                                        ,,

                                                                                         .
                                                                                        ,,




                                                                                        ..,.
                                                                                           .
                                                                                A&2

                                                              . .  .
                         cnts uf the Health Care Financj@@nmtraQQu     IHCFA)
                       ~of             hg@ar     Genera 1KXGl H    R cx
   �




         a          Establish a de   for dldlkd         tmtqmrta


         o          Require uniform use of national embulan-       oack

‘lM    HCFA may need tQ revise or elabcmte on the current definihm af national
~ce               codca ao that the disbdme       emcmgcodes are clear to bilk   and payera

dik   A-~~~buh~hdtibs~ti&medoo@.

Carriem ehouhi be aotifkd that smviccs dmuld be bind under the appropriate +                   as

nwiyd&nti     rnatdertobelekbumd




HCFA comum We are currcmw explaring the ftasibfity ofrevising our coding qstum

b ambdance services.

                  In that q~     we lmw b= working with the American
         ~cm     to eneure tha~ to tho extentposaibk any coding chsnga we
~     - -W      ~ the ambulaucs iwhstry.                                                               -.



                                                                                                       ‘.
CkUSi&
     CaIrtbh.htg WU ax mwe of the fohwbtg s@8te ‘u and eeteblishing
           niorlprujec’t$ill pdlxllar gcographk areaa- % e probabi~ rnodeb dtibcd                         “.

.in appendix D oouid be ueed in implementing come of tbe stmstegica.
                                                                                                          ,
        o          Establieh a payment sAdoIe       h               to rnaimtmamx
                                                          ambulancetranspt
                   di8iy&andaottho feelcJverthanwM iepaid-foP un9Chedule4
                   emeqpmq traneportL To eetablieh the payment amoux HCFA might
                   ~       usiog Rujeot HOPE%data an the lower costs of scheduled
                   ~        - ~      he PI--C   d ok P8yors (sg., US. Depmnent of
                   v~’a     Jl&@                                                                              ..

        0	         Neguth pmkrred providerqpemcnrs wfthambulance compios to
                   prcwide*ednkd tmuptmion h ESRI) beueficiark    Under this typa                        .
                                                                                                      . r“.


             ..



                                                                                                     ..



                                         [F -     3]

Page 2

              of syman, the mbdanm cxunpanycould be given a set pawent for each
              ~       in rctnrn for Medicaze’s buaincas

         a    UBdartakc competitive biddiug to est=blhh � ~  h **kd       frJUWXXTX
              for E3RD beuefkiaries or tn Mm cnmpanies who agree m prtide such
              ~        l’%c amtpeuti bidding rnigltfbe rnockkd afbr the 1993 HCFA
              kgishfve prqxxal fur oxygenand other hrabk medical equipment

         o	   Establish a rebate programfor earnpaaks that rmtinely transport ESRD
              kelkiaries.     Under MS type of qete~ ccxrqnmicawhkh reaiw over a
              certain dcilez Ievd in paymcats might be required to ~ovide a rebata
              based on a percentage of tho payments made. For exampiq companies
              wbieh rcsived $SO,?MX)  in Med~e    pqmeam cotdd be required to rebate
              S percent ($Z500) at the cad of the year.

         0    Provide en add-on to the cumucufte rate hdedicarc Payadialwis f=dhiea co
              Cmer   t.h mst of transporung    bedimmee ­ and alkiv ihe fa&ty to
              negodaliia egreetumte with ambuhtm -nies.           TIM ntodeI for this is
              the hiediam    hoepital pllyYlleBtm=hanmm By bundlfng an add-an for
              tmmpmad~        Medkare would be enoouzegimgdie use uf the nrcmccxn.
                                             .
              eKcethmmodoof~                       -rbcdMyeie f*,     w&btirnm
              excdkrn poeidon to detenttine whether a patient xqrirea an ambulance,
              mhmafkektmst                      timangingfortiem~       --~~m-s
              od trempmL Hawever, given tb smail number of ESRD beneficiaries
              ubg ambu~~          it maybe dif&ult to aet add-en mtea for 8JItilith.


                                                                                                .’

H(?FA ~m       witk the intern of tha reeommendaCkr&We mmgnizs that tbete are a
number ofvtdneeaMEda in the *payment           syuem for exnimlanca~     under
Pert B. As � -i% we am am’unt!yengaged in 8 Cmllpnehllsnm efh)rt to improve
overeRRYv6mp esdpaynMntpoiideaf orxlwaneeserwieek




                                                                                            .“        .


                                                                                                     ,,
                                                                                                ..
                                                                                           ‘.
                                                                                                ,..

                                                                                                     .,
                                                                                           ,.
                                                                                           J.
                                                                                            . .




                                     [1? -   4]

